           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


  PERFORMANCE INDICATOR AUDIT:
      GENERAL OBSERVATIONS


   January 2005    A-15-05-25096




 AUDIT REPORT
                                     Mission

We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                    Authority

The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                      Vision

By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                    SOCIAL SECURITY

MEMORANDUM

Date:   January 6, 2005                                                             Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Performance Indicator Audit: General Observations (A-15-05-25096)
        We contracted with PricewaterhouseCoopers, LLP (PwC) to evaluate 16 of the Social
        Security Administration’s performance indicators established to comply with the
        Government Performance and Results Act. For each performance indicator, PwC’s
        objectives were to:
           •   Test critical controls over the data generation and calculation processes for the
               specific performance indicator;
           •   Assess the overall adequacy, accuracy, reasonableness, completeness, and
               consistency of the performance indicator and supporting data; and
           •   Determine if each performance indicator provides meaningful measurement of
               the program and the achievement of its stated objectives.

        The evaluation of the 16 performance indicators resulted in 7 audit reports. The seven
        reports are listed below.
                                    Report Title                                     CIN
         Employment for Disabled Beneficiaries                                   A-02-04-14068
         Earnings Suspense File                                                  A-15-04-14069
         President’s Management Agenda Related Initiatives                       A-15-04-14070
         Management Information Systems Development and Protection               A-15-04-14071
         Processing Time                                                         A-02-04-14072
         Productivity                                                            A-15-04-14073
         Disability Determination Services Net Accuracy Rate                     A-15-04-14074

        During the audits of 16 performance indicators included in the Agency’s Fiscal Year
        2003 Performance and Accountability Report, PwC identified several areas for
        improvement across multiple indicators. The findings noted in this report apply to the
        overall management of the performance indicator process for the 16 performance
        indicators reviewed.
Page 2 – The Commissioner


Please provide within 60 days a corrective action plan that addresses each
recommendation. If you wish to discuss the final report, please call me or have your
staff contact Steven L. Schaeffer, Assistant Inspector General for Audit, at
(410) 965-9700.




                                               S
                                               Patrick P. O’Carroll, Jr.

Attachment
MEMORANDUM

Date:     December 22, 2004

To:       Inspector General

From:     PricewaterhouseCoopers LLP

Subject: Performance Indicator Audit: General Observations (A-15-05-25096)

The Government Performance and Results Act (GPRA)1 of 1993 requires the Social
Security Administration (SSA) to develop performance indicators that assess the
relevant service levels and outcomes of each program activity.2 GPRA also calls for a
description of the means employed to verify and validate the measured values used to
report on program performance.3

OBJECTIVE
We audited 16 of SSA’s performance indicators reported in the Agency’s Fiscal Year
(FY) 2003 Performance and Accountability Report (PAR). For each performance
indicator audited, our objectives were to:

          1. Test critical controls over the data generation and calculation processes for
             the specific performance indicator.
          2. Assess the overall adequacy, accuracy, reasonableness, completeness, and
             consistency of the performance indicator and supporting data.
          3. Determine if each performance indicator provides meaningful measurement
             of the program and the achievement of its stated objectives.

In addition to completing the objectives noted above, we also identified areas for
improvement to the overall SSA process over performance indicators. This report
contains our observations related to the overall management, documentation, and
reporting of SSA performance indicators.




1
    Public Law (P. L.) No. 103-62, 107 Stat. 285.
2
    31 United States Code (U.S.C.) 1115(a)(4).
3
    31 U.S.C. 1115(a)(6).


Performance Indicator Audit: General Observations (A-15-05-25096)                            1
BACKGROUND

Performance indicator measurement at SSA is the process that provides multiple points
of performance information for both external and internal Agency reporting needs.
Information on performance indicator results has been integrated into SSA’s PAR. The
information reported in the PAR is used to help manage SSA operations by providing
the Agency with a process to show current performance in relation to past performance
and project future performance for the next several years. As a result, SSA has been
able to use the information gained from monitoring the performance indicators to plan
for future Agency actions. In its FY 2003 PAR, SSA reported the results of
46 performance indicators.

GPRA and the Office of Management and Budget (OMB) require SSA (and other
Federal agencies) to report on the performance of programmatic functions. OMB holds
SSA accountable for performance indicator variances, and budgetary decisions are
based in part on the information reported in the PAR. The intent of reporting the results
of the performance indicators in the PAR is to inform OMB, Congress, and the United
States public of the performance results of the overall SSA mission.

The Office of the Chief Strategic Officer/Office of Strategic Management (OCSO/OSM)
is responsible for coordinating with each indicator “owner” to support the development,
monitoring and reporting of performance indicators. OCSO/OSM also encourages
SSA’s managers to use performance indicator information as a part of their ongoing
strategic and operational planning activities. The individual owners are responsible for
ensuring that the progress of the indicator is tracked and reported on a periodic basis.

RESULTS OF REVIEW
We identified several areas for improvement during our audits of 16 performance
indicators included in SSA’s FY 2003 PAR. A number of our findings relate to the
overall management of the performance indicator process for the 16 performance
indicators we reviewed. These include:

   •   SSA has not consistently developed or documented detailed policies,
       procedures, and controls to collect, review, and report information for the
       individual performance indicators. For the indicators included in our audits, SSA
       did not consistently document the detailed responsibilities of the indicator
       owners, data sources, data interfaces, data modifications, or controls to ensure
       that performance indicator data were complete, accurate, valid, and that an audit
       trail of data and calculations of indicator results were maintained. We identified
       this issue in 13 of the 16 indicators reviewed. In addition, we found that SSA
       employees and contractors had excessive access rights defined within the Top
       Secret security software, which allowed update and create access to the
       mainframe datasets used to calculate performance indicators. We identified this
       issue in 6 of the 16 indicators reviewed.


Performance Indicator Audit: General Observations (A-15-05-25096)                          2
   •   SSA had not ensured that the disclosures in the PAR clearly linked each
       performance indicator to the Agency’s strategic goals and objectives and
       described each performance indicator completely, accurately, and consistently.
       In addition, for many of the indicators, the narrative information included within
       the PAR did not consistently provide clear linkage between the indicators and the
       Agency’s strategic goals and objectives. We identified this issue in 11 of the
       16 indicators reviewed.

In addressing these findings in our reports, we noted that responsibility for policies,
internal controls and disclosures related to individual performance indicators is
distributed among the various designated performance indicator “owners” and business
units. SSA has created the OCSO/OSM to coordinate and facilitate the process of
gathering the performance indicator information and results for internal and external
reporting. The purpose of OCSO/OSM as stated on OSM’s web site is to “Promote the
strategic management of SSA’s programs, resources and service delivery to improve
SSA Mission performance.”

However, SSA has not formally designated the Chief Strategic Officer or another single
Deputy Commissioner with the responsibility to ensure that performance indictor internal
controls are consistently designed and implemented, indicator results are validated, or
that performance indicator policies and procedures are created and enforced.
Furthermore, a single Deputy Commissioner has not been designated to ensure that the
reported indicators are meaningful, appropriately linked to the mission of SSA, or
developed in a manner that highlights the ultimate outcome and results of SSA’s
performance. OMB Circular Number A-123 Management Accountability and Control
requires agencies and individual Federal managers to take systematic and proactive
measures to develop and implement appropriate, cost-effective management controls
for results-oriented management.

RECOMMENDATION
We recommend SSA formally designate responsibility to ensure performance indicator
policies and internal controls are designed and implemented across the Agency. SSA
should consider designating a single Deputy Commissioner to be responsible for
ensuring indicator results are validated, and that overall performance indicator internal
controls are designed and implemented. In addition, a single Deputy Commissioner
should ensure that the reported indicators are meaningful, appropriately linked to the
mission of SSA, and developed in a manner that highlights the ultimate outcome and
results of SSA’s performance.

This designated individual(s) can be responsible for ensuring that SSA develops and
documents policies and procedures used to prepare and disclose the results of the
individual performance indicators on a consistent basis. Such documentation should
include the detailed responsibilities of the indicator owners, data sources, data
interfaces, data modifications, and controls in place to ensure that performance



Performance Indicator Audit: General Observations (A-15-05-25096)                           3
indicator data are complete, accurate, and valid; that an audit trail of data and
calculations of indicator results are maintained; and that access to data used to
calculate indicator results is appropriately restricted.

The designated individual can also require that indicator owners ensure: each
performance indicator is fully described in a complete, accurate, and explicit manner
within the PAR; the owners provide a clear linkage between the indicators and the
Agency’s strategic goals and objectives; and indicator titles, trend information, and data
definitions are consistent within the PAR.

SSA COMMENTS

SSA believes that performance management leadership already exists under the Office
of the Chief Strategic Officer. In addition, it believes that core responsibility for
performance indicators should rest with the Deputy Commissioners as sponsors or
owners of the indicators since they are responsible for achieving them. SSA stated that
it believed that the FY 2004 PAR included clear descriptions and definitions of each of
its performance indicators, including a description of the linkages between the indicators
and its strategic goals.

PwC RESPONSE

We agree SSA has taken steps to improve the descriptions of its indicators and their
linkages to its strategic goals. However, we continue to believe the designation of a
single Deputy Commissioner, with responsibility for enforcement of policies and
procedures, internal controls, and disclosure and validation of results, would improve
SSA’s performance management process. During our review of FY 2004 performance
measures, we will assess SSA’s progress in ensuring its indicators are meaningful,
linked to the mission of the Agency, and developed to highlight clearly SSA’s
performance. We will also assess the consistency and quality of documentation and
indicator results reported in SSA’s FY 2004 PAR.




Performance Indicator Audit: General Observations (A-15-05-25096)                        4
                                    Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – Agency Comments




Performance Indicator Audit: General Observations (A-15-05-25096)
                                                                           Appendix A

Acronyms
 DDS               Disability Determination Services
 FY                Fiscal Year
 GPRA              Government Performance and Results Act
 OCSO/OSM          Office of the Chief Strategic Officer/Office of Strategic
                   Management
 OMB               Office of Management and Budget
 PAR               Performance and Accountability Report
 SSA               Social Security Administration
 SSI               Supplemental Security Income




Performance Indicator Audit: General Observations (A-15-05-25096)
                                                                        Appendix B

Scope and Methodology
We updated our current understanding of the Social Security Administration’s (SSA)
Government Performance and Results Act (GPRA) processes. This was completed
through research and inquiry of SSA management. We also requested SSA to provide
various documents regarding the specific programs being measured as well as the
specific measurement used to assess the effectiveness and efficiency of the related
program.

Through inquiry, observation, and other substantive testing including testing of source
documentation, we performed the following as applicable:

   •   Reviewed prior SSA, Government Accountability Office, and other reports related
       to SSA GPRA performance and related information systems.
   •   Met with the appropriate SSA personnel to confirm our understanding of each
       individual performance indicator.
   •   Flowcharted the processes.
   •   Where applicable, we tested key controls related to manual or basic
       computerized processes (e.g., spreadsheets, databases, etc.).
   •   Conducted and evaluated tests of the automated and manual controls within and
       surrounding each of the critical applications to determine whether the tested
       controls were adequate to provide and maintain reliable data to be used when
       measuring the specific indicator.
   •   For those indicators with results that SSA determined using computerized data,
       we assessed the completeness and accuracy of that data to determine the data's
       reliability as it pertains to the objectives of the audit.
   •   Identified and extracted data elements from relevant systems and obtained
       source documents for detailed testing selections and analysis.
   •   Identified attributes, rules, and assumptions for each defined data element or
       source document.
   •   Tested the adequacy, accuracy, reasonableness, consistency, and completeness
       of the selection.
   •   Recalculated the metric or algorithm of key performance indicators to ensure
       mathematical accuracy.

As part of this audit, we documented our understanding, as conveyed to us by Agency
personnel, of the alignment of the Agency’s mission, goals, objectives, processes, and
related performance indicators. We analyzed how these processes interacted with
related processes within SSA and the existing measurement systems. Our
understanding of the Agency’s mission, goals, objectives, and processes were used to
determine if the performance indicators being used appear to be valid and appropriate



Performance Indicator Audit: General Observations (A-15-05-25096)                     B-1
given our understanding of SSA’s mission, goals, objectives and processes. We
followed all performance audit standards.

We audited the following performance indicators in the SSA Fiscal Year 2003
Performance and Accountability Report:

       1.   Percent of commercial positions competed or converted.
       2.   “Get to Green” on all President’s Management Agenda initiatives.
       3.   Percent improvement in the retention rate.
       4.   Provide the equivalent of 40 hours of training annually to all employees.
       5.   Maintain zero outside infiltrations of SSA’s programmatic mainframes.
       6.   Milestone measures for Managerial Cost Accountability System and Social
            Security Unified Measurement Systems.
       7.   Milestones in developing new performance management systems (Implement
            new Senior Executive Service system).
       8.   Disability Determination Services (DDS) net accuracy rate (allowances and
            denials combined).
       9.   Percent increase in the number of Supplemental Security Income (SSI)
            disabled beneficiaries earning at least $100 per month.
     10.    Reduction in the size of the earnings suspense file.
     11.    Percent of incoming earnings items removed from the suspense file at the
            end of the annual earnings posting cycle.
     12.    Average processing time for initial disability claims.
     13.    Average processing time for all hearings.
     14.    Percent improvement in productivity.
     15.    DDS cases processed per work year.
     16.    SSI Aged claims processed per work year.




Performance Indicator Audit: General Observations (A-15-05-25096)                 B-2
                                                                    Appendix C

Agency Comments




Performance Indicator Audit: General Observations (A-15-05-25096)
                                        SOCIAL SECURITY



MEMORANDUM

           December 20, 2004
                                                                                Refer To: S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      Larry W. Dye /s/
           Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report "Performance Indicator Audit: General
           Observations" (A-15-05-25096)--INFORMATION


           We appreciate OIG’s efforts in conducting this review. Our comments on the draft report content
           and recommendations are attached.

           Please let me know if you have any questions. Staff inquiries may be directed to
           Candace Skurnik, Director, Audit Management and Liaison Staff, at extension 54636.

           Attachment:
           SSA Response




           Performance Indicator Audit: General Observations (A-15-05-25096)                          C-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT “PERFORMANCE INDICATOR AUDIT: GENERAL OBSERVATIONS”
(A-15-05-25096)


Thank you for the opportunity to review and comment on the draft report. Our achievement of
the American Association of Government Accountant’s Certificate of Excellence in
Accountability Reporting every year since the award program began in fiscal year (FY) 1998,
and the attainment of a “green status” in the area of financial management on the FY 2004
President’s Management Agenda Scorecard clearly establishes that our financial statements,
annual performance plans and reports, and individual performance measures are comprehensive
and accurate. The realization of both of these accomplishments was achieved through the Social
Security Administration’s (SSA) and the OIG staff’s continuous efforts and diligence in
evaluating and improving our performance management and reporting processes. We appreciate
your providing us your observations from the reviews conducted in FY 2004 and our response to
the report contents and specific recommendations are provided below.

General Comments

Regarding the statement that SSA has not consistently developed or documented detailed
policies, procedures, and controls to collect, review, and report information for the individual
performance indicators, it should be noted that during the FY 2004 key performance indicator
and Government Performance Results Act audit process, components spent a lot of time
preparing the required documentation based on guidance received from PricewaterhouseCoopers
(PwC). Now that we are aware of the type of documentation that is being required, we anticipate
the next audit cycle will produce more consistent documentation. However, we also need to
balance the degree of effort required to maintain an audit trail of data and calculations for
indicator results. In some cases it may be cost prohibitive to maintain an audit trail of data and
calculations. In those cases, we will continue to work with PwC to develop a documentation
approach that will enhance the Agency’s performance measure reporting, while assisting the
auditors in understanding the processes used to arrive at quantitative data supporting the
Agency’s annual performance outcomes.

PwC found that SSA had not ensured that the disclosures in the Performance and Accountability
Report (PAR) clearly linked each performance indicator to the Agency’s strategic goals and
objectives or described each performance indicator completely, accurately, and consistently. In
addition, the narrative information included within the PAR for many of the performance
indicators did not consistently provide clear linkage between the indicators and the Agency’s
strategic goals and objectives. These issues were addressed in the FY 2004 PAR, as each
performance measure includes a narrative that describes how the measure links to the Agency’s
strategic goals and objectives.




Performance Indicator Audit: General Observations (A-15-05-25096)                             C-2
Recommendation Comments

Regarding the recommendation that we formally designate responsibility to ensure performance
indicator policies and internal controls are designed and implemented across the Agency, the
Office of the Chief Strategic Officer (OCSO) was established to direct the administration of the
Agency’s comprehensive management programs including competitive sourcing, quality
management, strategic planning and workforce analysis. They accomplish their mission by
collaborating and coordinating with Agency components to address cross-cutting programmatic
and administrative issues that include promoting the strategic management of SSA’s programs,
resources, and service delivery to improve mission performance. OCSO has a formal Agency
planning process in place, as it prepares the Strategic Plan, Annual Performance Plan and the
Annual Performance Report in the PAR. They also track the results of performance goals in
SSA’s Tracking Report. We believe performance indicator management leadership already
exists under the Office of Chief Strategic Officer.

Regarding the recommendations that we designate a single Deputy Commissioner to:
1) Ensure indicator results are validated, and that overall performance indicator internal controls
are designed and implemented; 2) ensure that the reported indicators are meaningful,
appropriately linked to the mission of SSA, and developed in a manner that highlights the
ultimate outcome and results of SSA’s performance; and 3) ensure that SSA develops and
documents policies and procedures used to prepare and disclose the results of the individual
performance indicators on a consistent basis. We believe that core responsibility for
performance measures should rest with the Deputy Commissioners as sponsors or owners of the
measures since they are responsible for achieving them.

Finally, regarding the recommendation that would require indicator owners to: 1) Ensure that
each performance indicator is fully described in a complete, accurate, and explicit manner
within the PAR; 2) provide a clear linkage between the indicators and the Agency’s strategic
goals and objectives; 3) ensure that indicator titles, trend information, and data definitions are
consistent within the PAR. As stated above, this issue was addressed in the FY 2004 PAR as
each performance measure includes a narrative that describes how the measure links to the
Agency’s strategic goals and objectives.

[The Agency also provided a technical comment which has been addressed in the
report.]




Performance Indicator Audit: General Observations (A-15-05-25096)                                C-3
                   Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Executive Operations (OEO). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                     Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                     Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                                Office of Executive Operations
OEO supports OIG by providing information resource management and systems security. OEO
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, OEO is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
